           U.S. Department of
                                                        Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General



Subject:   INFORMATION: Notification of Audit of National                  Date:    May 15, 2006
           Highway Traffic Safety Administration’s (NHTSA)
           Management Review Process
           Project Number 06M3002M000


  From:    Kurt W. Hyde                                                 Reply to
           Assistant Inspector General for                              Attn. of:   JA-40
            Surface and Maritime Programs

    To:    National Highway Traffic Safety Administrator


           The Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for
           Users (SAFETEA-LU), requires the Office of Inspector General (OIG) to assess the
           National Highway Traffic Safety Administration’s (NHTSA) management review
           program and report on best practices. To address requirements set forth in SAFETEA-
           LU, the OIG is initiating this audit. Our audit objective will be to evaluate NHTSA’s
           management reviews of state highway safety programs and identify best practices.

           NHTSA administers several highway safety formula and incentive grant programs.
           States receive these grant funds to implement a variety of traffic safety programs that
           influence driver behavior, such as increasing use of seat belts and child passenger safety
           seats, preventing and reducing drinking and driving, and improving safety data. In
           addition, states that fail to adopt laws designed to reduce alcohol-related fatalities
           associated with repeat drunk-driving offenders and open alcoholic beverage containers in
           motor vehicles are penalized by having a percentage of their highway construction funds
           transferred to highway safety programs. Total highway safety formula, incentive, and
           transfer grant funding for fiscal years (FY) 2005 and 2006 was $1.2 billion and NHTSA
           requested $584 million for FY 2007.

           SAFETEA-LU requires that NHTSA review each state highway safety grant program
           every 3 years and make recommendations to improve management and oversight of grant
           activities. A management review assesses the efficiency and effectiveness of a state’s
           organizational, program management, and financial management systems and practices
                                                                                    2


for strengthening highway safety programs. NHTSA planned to perform the first 3-year
cycle of management reviews durings FYs 2005-2007.

NHTSA also conducts special management reviews that evaluate management and
operational practices in specific program areas to assess states’ program performance and
progress. These reviews are scheduled as needed, usually because a state has consistently
performed below the national average using analyses of the best and most current data
available from NHTSA’s Fatality Analysis and Reporting System, mileage death rates,
alcohol death rates, and safety belt surveys.

In conducting our audit, we will answer the following questions:

      1. Did NHTSA develop its management review process in accordance with the
         General Accountability Office's April 2003 recommendations and is NHTSA
         following its own procedures?

      2. To what extent do NHTSA's management reviews address performance
         measures used by the states?

      3. Are there any best practices used by other agencies that NHTSA could adopt to
         improve its management review process?

We plan to begin our review immediately. We will conduct the audit at NHTSA offices
in Washington, D.C., selected NHTSA regional offices, and selected state highway safety
offices. We will also contact other Department agencies to obtain information on best
practices used in their oversight reviews. If I can answer any questions or be of further
assistance, please contact me at (202) 366-5630 or Joseph W. Comé, Program Director, at
(202) 366-0377.

                                        #

cc: FTA Audit Liaison, TAD-10
    FHWA Audit Liaison, HAIM-13
    MARAD Audit Liaison, MAR-318
    FMCSA Audit Liaison, MC-PRS
